No.
INTHE
SUPREME COURT OF THE UNITED STATES
Isidoro Rodriguez,
Petitioner,
vs.
Virginia State Bar Disciplinary Board,
Respondent.
On Petition for a Writ of Certiorari To
The Supreme Court of The Commonwealth of Virginia
Certificate and Notarized Proof of Service
In accordance with 18 U.S.C. § 1746(2), I declare under penalty of perjury in
accordance with the laws of the Commonwealth of Virginia that the foregoing is true
and correct.
I do swear or declare that on this date of July 13, 2020, as required by 28 U.S.C.
§ 2403(b) and Supreme Court Rule 29.3 & .5(c), I have served three (3) copies of
PETITIONER'S PETITION FOR A WRIT OF CERTIORARI and three (3) copies of
PETITIONER’S APPENDIX on opposing party's counsel, and as required by Supreme
Court Rule 29.4(c) on the Attorney General of the Commonwealth of Virginia, by
enclosing the above referenced documents to each of them listed below for delivery
within 3 calendar days by United States Postal Service Priority Mail in a properly
addressed envelope:
The names and addresses of those served are as follows:
Hon. Mark Herring
Attorney General
for the Commonwealth of Virginia
202 North 9th Street
Richmond, Virginia 23219
Page 1 of 2

r
/

Ms. Erin R. McNeill, Esq.
Assistant Attorney General for the
Virginia State Bar Disciplinary Board
The Office of the Attorney General
202 North 9th Street
Richmond, Virginia 23219
I declare under penalty of perjury that the foregoing is true and correct.
Executed- July 13, 2020
ectfully submitted,
Isidoro Roi

;ue

United States Address:
South American Office:
2671 Avenir Place, Apt. 2227
World Trade Center
Vienna, Virginia 22180
Calle 76 No. 54-11, Office 313
Telephones: 1.541.477.5350
Barranquilla, Colombia
e-mail:Business@isidororodriguez.com
Telephone: (011)57.300.658.7220
Web: www.isidororodriguz.com
Page 2 of 2

